<html>
<title> - FEDERAL AVIATION ADMINISTRATION REAUTHORIZATION</title>
<body><pre>[Senate Hearing 114-172]
[From the U.S. Government Publishing Office]


                                                  S. Hrg. 114-172

            FEDERAL AVIATION ADMINISTRATION REAUTHORIZATION

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 14, 2015

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                          U.S. GOVERNMENT PUBLISHING OFFICE
98-476 PDF                    WASHINGTON : 2016                          

_________________________________________________________________________________________  
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c2a5b2ad82a1b7b1b6aaa7aeb2eca1adafec">[email&#160;protected]</a>  
    
      
      
      
 
      
      SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
MARCO RUBIO, Florida                 CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          AMY KLOBUCHAR, Minnesota
TED CRUZ, Texas                      RICHARD BLUMENTHAL, Connecticut
DEB FISCHER, Nebraska                BRIAN SCHATZ, Hawaii
JERRY MORAN, Kansas                  EDWARD MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 CORY BOOKER, New Jersey
RON JOHNSON, Wisconsin               TOM UDALL, New Mexico
DEAN HELLER, Nevada                  JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               GARY PETERS, Michigan
STEVE DAINES, Montana
                    David Schwietert, Staff Director
                   Nick Rossi, Deputy Staff Director
                    Rebecca Seidel, General Counsel
                 Jason Van Beek, Deputy General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
       Clint Odom, Democratic General Counsel and Policy Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 14, 2015...................................     1
Statement of Senator Thune.......................................     1
Statement of Senator Cantwell....................................     3
Statement of Senator Blunt.......................................    13
Statement of Senator Nelson......................................    14
Statement of Senator Moran.......................................    15
Statement of Senator Booker......................................    18
Statement of Senator Ayotte......................................    20
Statement of Senator Daines......................................    21
Statement of Senator Heller......................................    23
Statement of Senator Klobuchar...................................    25
Statement of Senator Sullivan....................................    27

                               Witnesses

Hon. Michael P. Huerta, Administrator, Federal Aviation 
  Administration.................................................     4
    Prepared statement...........................................     6

                                Appendix

Response to written questions submitted by Hon. John Thune to 
  Hon. Michael P. Huerta.........................................    31

 
            FEDERAL AVIATION ADMINISTRATION REAUTHORIZATION

                              ----------                              


                        TUESDAY, APRIL 14, 2015

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:34 a.m., in 
room SR-253, Russell Senate Office Building, Hon. John Thune, 
Chairman of the Committee, presiding.
    Present: Senators Thune [presiding], Wicker, Blunt, Ayotte, 
Heller, Fischer, Sullivan, Moran, Gardner, Daines, Nelson, 
Cantwell, Klobuchar, Schatz, Booker, and Manchin.

             OPENING STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    The Chairman. This hearing will come to order.
    Good morning. Today, the Commerce Committee begins a series 
of hearings on the reauthorization of the Federal Aviation 
Administration, and we are fortunate to have with us the 
Administrator of the FAA, Mr. Michael Huerta.
    Mr. Administrator, I want to thank you for being here to 
help us kick off our effort to review the programs of the FAA 
as we move forward on reauthorization legislation.
    Aviation has been and continues to be an essential 
component of our economy and society. From the crop dusters 
serving our agricultural heartland to modern jetliners that can 
connect almost any two points on the planet, the aviation 
community touches just about every aspect of modern life.
    New frontiers in aviation, such as unmanned aircraft, 
continually arise and challenge both entrepreneurs and 
government regulators alike. Air transportation facilitates 
business and social interaction more and more each year. While 
the Internet has allowed the world to connect virtually, it is 
often aviation that allows the world to connect in reality.
    At the center of our vibrant aviation community lies the 
FAA, which has played a critical role in ensuring that flying 
is safe for those in the air and on the ground. Although it can 
be hard to compare the different modes of transportation, most 
experts agree that aviation remains far and away the safest way 
to travel.
    This is truly remarkable given the inherent complexities of 
flight and the immense size of our aviation system. On average, 
in any given hour, there may be as many as 60,000 people 
airborne over the U.S. That is nearly the population of Rapid 
City, which is South Dakota's second-biggest city.
    So the entire aviation community, including the FAA, should 
be proud of this safety record. Of course, we must not become 
complacent, as there is always room for improvement.
    I believe that we have in the audience today family members 
of some of the victims of the Colgan Air tragedy in Buffalo 
just 6 years ago this February. Their efforts to improve 
aviation safety have had a meaningful impact in the years after 
that horrible tragedy, and I admire their tireless efforts on 
behalf of the traveling public.
    Our Nation's air traffic control system has served us well 
for many years, but it is still based on equipment, concepts, 
and procedures that date back decades. In recent years, the FAA 
has tried to modernize the system by moving to satellite 
navigation and more automation, but these efforts have cost 
many billions of dollars with not as much progress as we all 
would like to see.
    The Government Accountability Office and DOT's Inspector 
General have pointed out the many shortcomings with respect to 
FAA's efforts to modernize our air traffic control system. Some 
of the problems seem to be deep-rooted and cultural in nature.
    Nearly 8 years ago, the IG noted that implementing the Next 
Generation Air Traffic Control System, or NextGen, would be an 
extraordinarily complex, high-risk effort. That looks like a 
gross understatement, as we are still many years away from full 
implementation, with many more billions yet to be spent.
    Some have suggested that the current governance model for 
air traffic control is ill-suited for NextGen. In that regard, 
I applaud Chairman Shuster of the House Transportation and 
Infrastructure Committee on his consideration of new approaches 
that may yield better results and deliver the promised benefits 
of NextGen.
    So I look forward to discussing options for reform this 
morning. No matter who is in charge of the operation of the air 
traffic control system, airports are an integral part of our 
aviation system. Whatever path we take this year, we are sure 
to debate options for airport funding and how to maintain 
equitable access to funding for airports of all sizes.
    Ours is truly a National Airspace System, a system of 
airports and air traffic control infrastructure that ties 
communities, big and small, together, not to mention the vast 
users, from private pilots, commercial jetliners, military 
users, and even space tourism.
    As important as the safety standards and procedures for 
operating in the Nation's airspace are, so, too, are the 
standards and certification processes that ensure safety of 
aircraft in the system. If the United States is to remain at 
the forefront of aerospace manufacturing and innovation, the 
FAA must be able to review and approve new aircraft in a timely 
and effective manner. Cutting edge technologies, from fly-by-
wire airliners to unmanned aircraft systems, need to get to 
market quickly with FAA's gold standard safety certification.
    Again, I want to thank the Administrator for being here to 
discuss these and other important aviation issues.
    The FAA has a lot of work ahead, and this committee is in a 
position to help the agency be the best it can be in the years 
ahead. I am looking forward to working with Ranking Member 
Nelson as well as with Senators Ayotte and Cantwell on this 
important legislation.
    I now want to turn to Senator Cantwell, who is the Ranking 
Member on the Aviation Subcommittee, for her opening remarks.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman. I am just pinch-
hitting for Senator Nelson, who I think is going to be joining 
us momentarily.
    And, obviously, Administrator Huerta, great to see you here 
today.
    Aviation has played a critical role in the development of 
our national economy. I know my colleague from Florida would 
want me to mention that the first commercial service flight 
happened in 1914 between St. Petersburg and Tampa, so it is 
very important to his state, as well.
    Since then, commercial air service and general aviation and 
manufacturing have flourished all throughout the United States, 
including Florida and in my state of Washington, providing 
good-paying jobs and creating opportunities in education, 
tourism, technology, research, and business.
    The bottom line is that a robust, reliable air 
transportation system is essential to our Nation's growth. I 
appreciate the work of the FAA in ensuring that segments of the 
aviation industry have access to airspace and for their efforts 
to prepare our air traffic system for future growth and 
challenges.
    The FAA is integrating new technology, including unmanned 
aircraft and commercial space operations, into the national 
airspace. For example, this Committee recently held a hearing 
on unmanned aircraft, which hold immense potential for many 
industries, from helping fight, for example, in Florida, citrus 
greening to delivering faster packages after a natural 
disaster.
    The FAA has also made significant progress on NextGen air 
traffic control modernization. Benefits being delivered today 
under NextGen include more efficient flight paths that save 
airlines and travelers time and money and reduce fuel 
emissions. And so we will look forward to hearing more about 
that, its implementation, and how we can continue to improve.
    But there are certainly some storm clouds on the horizon. 
While the number of commercial air passengers continues to grow 
by more than 2 percent each year and our major hubs are 
bustling, we are seeing reduced service and higher fares in a 
number of smaller communities. I am sure my colleagues have 
heard a lot from their constituents on this.
    Additionally, airline consolidation has led to reductions 
in competition and service that have negatively affected 
consumers in some areas. As the Committee moves forward on FAA 
reauthorization, I hope all of us will remain sensitive to not 
only maintaining one of the safest aviation industries in the 
world, but also one that is consumer-friendly.
    FAA authorization was extended 23 times before a new law 
was enacted, and we simply cannot afford a repeat of those 
events. In 2013, for example, we spent a lot of time just 
trying to keep 149 contract towers open. Though we ultimately 
were successful, our time is better spent working on addressing 
real long-term challenges and not more problems created by 
Congress.
    The FAA needs stable funding and a long-term authorization 
to carry out its mission. I know my colleague Senator Nelson is 
leading the charge on that, working with Chairman Thune.
    Administrator Huerta, I look forward to hearing your 
thoughts on how we mitigate the impacts of sequestration and 
enable the FAA to continue its important work safeguarding the 
busiest and most complex aviation system in the world.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Cantwell. And we do look 
forward to working with you and Senator Nelson and members on 
our side in fashioning a bill that fits with the requirements, 
the needs that we have in our modern air traffic system in this 
country.
    And we are delighted, as I said, to have the Administrator 
here today of the FAA, Mr. Michael Huerta.
    And so, Administrator, please proceed. We would love to 
hear from you, and then we will ask you a few questions. So 
thank you for being here.

  STATEMENT OF HON. MICHAEL P. HUERTA, ADMINISTRATOR, FEDERAL 
                    AVIATION ADMINISTRATION

    Mr. Huerta. Thank you, and good morning. Chairman Thune and 
members of the Committee, thank you for inviting me to speak 
today about the reauthorization of the Federal Aviation 
Administration.
    It seems like not that long ago that we were united with a 
shared sense of urgency to provide the necessary framework and 
structure to support our Nation's aviation system as part of 
the FAA reauthorization of 2012, and now here we are again to 
continue with that important work.
    Government and industry have a shared responsibility to 
create the aviation system that will carry this Nation well 
into the 21st century. The FAA has made major progress in 
transforming our airspace system through NextGen, and that 
progress continues as speak.
    I am very proud to announce that we achieved a major 
milestone just last month by completing one of the largest 
automation changeovers in the history of the FAA. We have 
completed our new high-altitude air traffic control system, 
known as ERAM. This system will accommodate the technologies of 
NextGen, giving the United States a more powerful air traffic 
system.
    ERAM, or En Route Automation Modernization, is not just a 
faster computer system. It is a network that replaces our 
legacy system, which had its roots in the 1960s. ERAM processes 
data from nearly three times the number of sensors as the 
legacy system it replaces. It can track and display more high-
altitude flights and enable controllers to handle additional 
traffic much more efficiently.
    This upgrade is complete now because we introduced a great 
deal of discipline and structure to the way that we do business 
at the FAA. In 2012, we created a program management 
organization to better manage the deployment of this and other 
technologies. We also worked closely with our employees, those 
that will use the system, to gain insight and to make 
alterations ahead of time for a smooth transition.
    The fact that we turned ERAM around and that it is now 
operating nationwide is a testament to what the FAA can 
accomplish as an agency when it sets milestones and pulls 
together as a team to make fundamental changes.
    ERAM links seamlessly with another complementary system 
that makes up the foundation of NextGen. This system is called 
Automatic Dependent Surveillance-Broadcast, or ADS-B. Last 
year, we finished the coast-to-coast installation of the ADS-B 
network that will enable satellite-based air traffic control. 
ADS-B provides a more precise and efficient alternative radar 
and will create a sea change in how we manage our Nation's air 
traffic.
    With this highly flexible NextGen foundation in place, the 
FAA has fulfilled an important commitment. We are working with 
the industry and the general aviation community to help them 
meet their requirement to equip by 2020.
    On a parallel track, through our collaboration with 
industry, we have identified key priorities in implementing 
NextGen air traffic procedures. We now have more satellite-
based procedures in our skies than radar-based procedures. We 
created new NextGen routes above our busiest metropolitan 
areas, saving millions of dollars in fuel burn, shortening 
flight paths, decreasing carbon emissions, and cutting down on 
delays.
    We have accomplished all of this despite a very challenging 
fiscal backdrop. Prior to 2012, the FAA faced 23 short-term 
extensions for reauthorization, as well as a lapse in spending 
authority and a partial furlough. Two years ago, like other 
Federal agencies, we slashed our budget under the sequester and 
furloughed employees. Later that year, we continued to operate 
our Nation's air traffic control system and safely regulate the 
industry despite a complete shutdown of the Federal Government.
    What the FAA needs in reauthorization is stability and 
predictable funding. We also need the flexibility to identify 
priorities and to match our services and infrastructure with 
the needs of our users.
    It bears emphasizing that the FAA is a 24/7 operation, 
singularly focused on safety. I think everyone has acknowledged 
that the funding piece has been challenging in the last 5 
years. There is talk about restructuring the FAA as part of 
this reauthorization. I am all for having that discussion, but 
that discussion needs to be based on facts. We need to be sure 
that any governance changes would work to solve the challenges 
that are faced by the FAA.
    Our aviation system is a valuable asset for the American 
public that contributes 12 million American jobs and $1.5 
trillion to our economy. We should use the upcoming 
reauthorization to provide the FAA with the tools necessary to 
meet the demands that we have in the future. A lot is at stake, 
and we need to get it right.
    So I thank you for the opportunity to appear before the 
Committee today. I am happy to respond to any questions you may 
have.
    [The prepared statement of Mr. Huerta follows:]

     Prepared Statement of Hon. Michael P. Huerta, Administrator, 
                    Federal Aviation Administration
    Chairman Thune, Senator Nelson, Members of the Committee:

    Thank you for inviting me to speak with you today on the 
reauthorization of the Federal Aviation Administration's (FAA) 
programs.
    It seems it was not that long ago that the FAA was celebrating the 
passage of the FAA Modernization and Reform Act of 2012 (the Act). As 
you know from recent hearings, the FAA continues to work to meet the 
directives of the Act. We have completed over three-quarters of the 
more than 200 reauthorization requirements that Congress directed us to 
undertake in the Act. We are proud of what we have achieved and know we 
still have more work to do.
    Aviation was born in America--and has thrived in this country since 
Wilbur and Orville took their first flight over 100 years ago. We are 
truly unique in having the world's most vibrant and diverse aviation 
community--commercial carriers, regional carriers, business aviation 
and recreational flyers, not to mention new users like operators of 
unmanned aircraft systems (UAS) and commercial space vehicles. U.S. 
aircraft and avionics manufacturers produce some our Nation's most 
valuable exports.
    Our leadership, however, is being challenged globally by the 
evolution of the industry and the growth of foreign competitors. 
Domestically, the FAA faces several particular challenges moving 
forward: investing and implementing long-term modernization and 
recapitalization projects, and quickly adapting to the growth and 
development of the global aviation industry. In recent years, funding 
uncertainties resulting from sequestration, government shutdowns, and 
short-term reauthorization extensions, have hurt the FAA's ability to 
efficiently perform our mission, and have impeded our ability to commit 
to long-term investments. This means that we need stable, long-term 
funding to effectively operate our air traffic control system, invest 
in NextGen and efficiently recapitalize our aging facilities. This 
would best be achieved with the passage of a long-term reauthorization 
bill that establishes stable long term funding to provide the certainty 
necessary to plan and implement long-term projects. In times of 
constrained budgets, we need to prioritize our responsibilities to 
focus our resources on ensuring the safety and efficiency of the 
existing aviation system as well as delivering new technology and 
capabilities, and respond nimbly to evolving challenges such as new 
external cyber security threats. Additionally, the agency needs greater 
flexibility to transfer funding between accounts to meet those 
challenges. We cannot risk being left behind as the aerospace industry 
becomes more complex, diverse, and globalized.
    At the FAA, we have begun laying the foundation for the aviation 
system of the future and ensuring that the United States continues to 
play a fundamental role in shaping the global aviation system. To 
achieve this, I am focused on several strategic areas: (1) making 
aviation safer and smarter through risk-based decision making; (2) 
delivering benefits to the traveling public and industry through 
technology and infrastructure improvements; (3) fostering a workforce 
with the skills and innovation necessary to deliver the future system; 
and (4) reinvigorating our influence around the world through our 
Global Leadership Initiative.
    To maintain our global leadership--and continue to reap the 
economic benefits of this industry--I believe we must use the upcoming 
reauthorization as an opportunity to provide the FAA with the tools 
necessary to meet the future needs of our industry stakeholders and the 
traveling public. Global leadership in aviation is an area that is of 
mutual concern to all of our stakeholders, this Committee and the 
Administration.
    Air travel is an invaluable asset to the U.S economy and the FAA 
shares a responsibility for ensuring that asset is available to the 
flying public. A long term reauthorization can also lay the groundwork 
for ensuring consumer protection and fostering competition in the 
national airspace. Access to small and rural communities can be 
improved by increasing efficiencies in existing programs, and air 
travel can be made more accessible to those with disabilities. Because 
the flying public relies on services the FAA provides every day, 
because aviation is a tremendous asset to our economy, and because of 
our global leadership role, we must take steps to ensure the FAA is 
well-positioned to meet the challenges the aviation industry faces. A 
lot is at stake here, so getting things right is vital.
    To succeed, we will need to unite the interests of industry and the 
flying public around our priorities and I welcome the opportunity to 
continue this dialogue on how best to move forward. With a unified view 
on the right tools and initiatives, this upcoming reauthorization will 
give the FAA a tremendous opportunity to make a difference for the 
traveling public and the economy, while addressing the challenges that 
the changing industry presents.
Making Aviation Safer and Smarter through Risk Based Decision Making
    The aerospace industry is growing more complex, and is not the same 
industry we regulated in decades past, or even a few years ago. Several 
factors in particular are increasing the complexity of the industry and 
introducing different types of safety risk into the system. These 
factors include new aerospace designs and technologies (e.g., UAS), 
changes in the FAA's surveillance and oversight model (e.g., designee 
management programs), and different business models for the design and 
manufacture of aircraft and products (e.g., more global supply chains). 
In order to leverage FAA's limited resources, we must ensure that they 
are directed at areas with the highest safety risk. Because commercial 
aviation accidents are becoming rare occurrences, the FAA needs to 
build on these safety successes and identify and mitigate precursors to 
accidents to better manage aviation safety and ensure we continue to 
have the safest aviation system in the world.
    Reauthorization can help us succeed with this initiative by 
establishing and fostering risk-based safety approaches to aviation 
oversight; expanding collaborative, data-driven safety processes with 
industry to improve safety; and accelerating risk-based certification 
mechanisms in order to achieve more streamlined processes in areas such 
as certification. I know you have heard from industry that this is 
important from their perspective in order to improve their 
competiveness in a global market.
Delivering benefits through technology and infrastructure in the 
        National Airspace System (NAS)
    This initiative lays the foundation for the NAS of the future by 
achieving prioritized NextGen benefits, integrating new user entrants, 
and delivering more efficient streamlined services. The nation's air 
traffic system is based on infrastructure that was largely built 50 
years ago and is out of balance with our stakeholders' changing needs 
and is increasingly costly to maintain. Over the past 10 years, the 
agency has seen dramatic technological change, fuel price fluctuations, 
congestion concentrated in fewer hubs and an increasing backlog of much 
needed infrastructure, maintenance and modernization.
    Building the NAS of the future and accommodating new services will 
require difficult decisions. FAA needs the flexibility to modify its 
service levels to match changing industry air traffic demands. This is 
essential in order to reduce costs and become more efficient in the 
long run. The network of FAA facilities, infrastructure, and technology 
is aging and sprawling and needs to be addressed. Over the next four 
years, it will be important to find a path so the NAS can undergo a 
transformation to a more efficient system with increased safety and 
user benefits. This means expanding collaborative efforts with industry 
stakeholders to implement NextGen. We need to continue to ensure that 
industry makes timely and necessary equipage investments to maximize 
the widespread deployment of NextGen. The NAS strategy sets a framework 
for prioritizing investment decisions and delivering measurable 
benefits. We can't afford a ``business as usual'' approach, especially 
if we want to maintain U.S. global influence. We need reauthorization 
to allow the FAA to better align our resources with the needs of the 
NAS by providing the FAA greater flexibility to modify our service 
levels to support changing industry demand, and by establishing a 
collaborative, transparent, and binding process to modernize FAA's 
facilities and equipment and match our footprint to the demand for air 
travel.
    NextGen is already redefining the NAS and delivering benefits to 
system users, such as reduced fuel costs, reduced delays, and reduced 
environmental impacts. Reauthorization can enable the FAA to enhance 
delivery of widespread benefits by expanding collaboration with 
industry to continue NextGen implementation. This includes 
collaborative efforts to ensure that industry makes timely and 
necessary equipage investments, working with industry to clarify and 
enhance milestones with hard deadlines for all NextGen projects and 
define measurable user benefits and deadlines for the delivery of those 
benefits.
    Reauthorization should establish flexibilities, such as exemptions 
from existing law, needed to enable the safe and efficient integration 
of new users, including UAS and commercial space transportation 
vehicles, into the NAS, encouraging these innovative technologies. Last 
month, we issued a notice of proposed rulemaking that represents a big 
step forward in outlining the framework that will govern the use of 
small unmanned aircraft weighing less than 55 pounds. The proposed 
small UAS rule offers a very flexible framework that provides for the 
safe use of small unmanned aircraft, while also accommodating future 
innovation in the industry. We are doing everything we can to safely 
integrate these aircraft while ensuring that the United States remains 
the leader in aviation safety and technology. Reauthorization should 
support the development of tools and regulations to safely and 
efficiently integrate new users, including UAS and commercial space 
vehicles, into the NAS.
    Finally, the Nation's airport infrastructure must also be 
maintained. We propose to increase the Passenger Facility Charge to $8 
to allow for needed investments in commercial service airports. 
Restructuring funding for the Airport Improvement Program (AIP) to 
better respond to the needs of smaller airports is also critical to 
ensuring that all users of the system have the infrastructure in place 
to meet their future needs.
Empowering and innovating with the Workforce of the Future
    As our strategic initiatives suggest, FAA is embarking on a major 
transformation that can only be accomplished if it has a workforce that 
is prepared with the skills and mindsets to drive the needed change. 
Reauthorization can support long term workforce planning and implement 
policies that will foster the strong, skilled, accountable workforce 
necessary to implement NextGen. Strong leadership is required from all 
levels of the agency to communicate the vision, implement the priority 
initiatives, and ensure that transformational impact will be sustained. 
The movements toward risk-based decision making, transforming the NAS 
through streamlined services, acceleration of NextGen benefits, and 
integrating new users to the system require new technical and 
functional skills, and a cultural shift in how the agency works.
    To stay accountable to the public, the FAA will also refine its 
publicly available agency performance scorecard to clearly and 
publically acknowledge major changes to program's milestones, 
deadlines, costs, savings, or benefits. Monthly reporting on the 
agency's website on the performance of the agency and aviation industry 
in meeting these goals will help ensure that the FAA remains 
transparent and accountable to its mission.
    We are in the midst of a retirement wave, which presents both 
challenges and opportunities. It is important to set the foundation to 
empower and to innovate with tomorrow's FAA employees. The FAA needs to 
harness the collective strength of the agency's employees. The FAA's 
workforce is the ultimate driver of our success, which means that the 
agency must attract and develop the best and brightest talent, with the 
appropriate leadership and technical skills to undertake a necessary 
transformation.
Enhancing Global Leadership
    To enhance our global leadership position, we need to show the 
world how to achieve the next level of safety, deliver the 
technological capabilities to modernize air traffic management, and 
integrate new users seamlessly into the NAS. While aviation was 
invented in America, there is no guarantee that the United States will 
continue to shape the second century of flight. As other nations have 
seen their aviation systems grow dramatically they have become 
significantly more influential on the international stage and this 
presents safety, efficiency, and competitive challenges for both the 
FAA and U.S. businesses The FAA needs to be at the table to shape and 
harmonize international standards to effectively address these issues. 
This means we need to increase collaboration with industry and leverage 
our international relationships. The FAA also needs to strengthen the 
U.S. presence and role at the International Civil Aviation Organization 
(ICAO) and other international forums.
    The United States benefits from global leadership with increases in 
safety, efficiency, environmental sustainability, exports, and leverage 
to achieve broader international objectives. FAA programs promote 
seamless connectivity across borders for air navigation and product 
exchanges. Worldwide acceptance of U.S. policies and regulatory 
approaches removes barriers for the U.S. aerospace industry. The global 
leadership initiative ensures that the FAA maintains its external 
engagement and internal structure to continue improving the safety and 
efficiency of global aviation. To help us succeed, we need 
reauthorization to provide the budget stability over a long term that 
will prevent disruptions to our services and participation in the 
global aviation community, and demonstrate our commitment to aviation.
Conclusion
    I have outlined our aspirations, our challenges, and some guiding 
principles and ideas for how reauthorization could help advance safety 
improvements, make the national airspace system more efficient, improve 
service for air travelers and other stakeholders, and enhance America's 
leadership in aviation.
    What I have outlined today is a bold aspiration for the FAA, and 
will span far beyond the next four years. However, we are also 
committed to seeing measurable and steadfast progress that will achieve 
tangible benefits to users of the system by 2019. The rapidly changing 
industry, the technological opportunities, the uncertain fiscal 
environment, an evolving workforce, and the global backdrop comprise a 
compelling case for transformational change, and that is what the FAA 
expects to achieve.
    I like to believe we share a common vision for the FAA and its role 
in the future of aviation, domestically and globally. I hope that this 
mutual goal will enable us to work closely in the coming months to 
agree upon the changes necessary for the FAA to achieve the initiatives 
I have outlined today.
    Mr. Chairman, Ranking Member, I am eager to work with you and the 
Committee as we strive to achieve the appropriate path for the future 
of aviation and the economic engine it represents.

    The Chairman. Thank you, Mr. Administrator.
    I will start it off by asking the first question, and that 
has to do with, today, the Government Accountability Office is 
going to be releasing a report on cybersecurity challenges as 
they relate to FAA's transition to NextGen.
    GAO is recommending that FAA consider developing an agency-
wide threat model, include the Office of Aviation Safety on 
your Cyber Security Steering Committee, and develop a plan to 
implement revised cybersecurity guidelines from the National 
Institute of Standards and Technology.
    How is FAA responding to GAO's recommendations? And perhaps 
more generally, how confident are you that FAA has baked in 
cybersecurity in its NextGen efforts?
    Mr. Huerta. Thank you for that question.
    Cybersecurity is an ever-evolving threat, and it is 
something that we, like all Government agencies, need to 
maintain a very high level of vigilance to deal with what is a 
significant and evolving threat.
    We have concurred with GAO's recommendations relating to 
the deployment of NextGen and we have done a number of other 
things, as well.
    The FAA established a new Executive Cyber Security Steering 
Committee to oversee the full scope of cyber and risk issues 
that exist across what is, as you well know, a very technology-
intensive agency.
    One of the things that we are very focused on is how do we 
ensure that, as we identify problems in a particular area of 
the system, that we are able to take that information and 
assess the impacts and possible applicability of what those 
threats might represent in other parts of the system.
    We are also working with our government partners, including 
the Department of Homeland Security, who you referenced in your 
question, the National Security Agency, and the U.S. Army's 
Cyber Command, to work with them to identify other needed 
enhancements that we, as a government, can bring to our air 
traffic system.
    I think it is fair to say that this threat will continue to 
evolve, and it is something that needs to be at the forefront 
of our thinking as we, not only maintain the existing system, 
but also as we bring new technologies into the system. That is 
something that we are very focused on and very committed to. We 
look forward to working in continued partnership with GAO and 
with you in making new and existing technologies safe.
    The Chairman. Mr. Administrator, many in the aviation 
community are frustrated by the pace of air traffic control 
modernization and want to see the benefits of NextGen realized 
much sooner than the current plans provide. Some now are 
suggesting that the FAA's air traffic organization should be 
pulled out of the agency and transformed into a government or 
private corporation of some kind.
    My question is, is the Administration open to talking about 
such proposals?
    Mr. Huerta. I would like to address the first part of your 
question first. Through the combination of a lot of 
technological, operational and procedural enhancements, we are 
delivering a lot of benefits associated with NextGen now. It is 
an incredibly complex undertaking, but we are delivering an 
extensive range of performance-based navigation as well as 
technology solutions now, and that will continue with the 
further deployment of NextGen.
    As we look to the longer term, I think it is important to 
ask the question, what exactly is the problem that we are 
trying to solve? The FAA has made significant progress, but we 
know there is more to be done, therefore the Administration is 
very open to having a conversation on alternative governance 
models as long as we are focused on what are the major concerns 
that we are trying to address.
    I believe that there are several things that any governance 
structure needs to address. First and foremost, we have to 
maintain the very high levels of safety that currently exist.
    Second, we have to ensure that we are very focused on 
delivering technology and the benefits associated with that 
technology. That involves a very tight linkage between not only 
the operational side of the agency, but the regulatory side of 
the agency, which establishes separation standards and proves 
that the system operates safely.
    We also need funding stability in order to ensure that, as 
we make long-term investments, that they are not interrupted by 
needing to stop and start contracts. We must be able to support 
the operational enhancements and the training that is needed to 
deliver NextGen benefits.
    Can alternative governance structures get us there? 
Possibly. But, at the same time, we need to recognize that 
there may be unintended consequences that we have to fully 
understand. I would welcome the opportunity to have a robust 
discussion with the Committee on what other models might look 
like.
    The Chairman. Yes. Thank you.
    And, finally, the Airline Safety and FAA Extension Act of 
2010 required the FAA to create an electronic database of pilot 
records to facilitate vetting of pilots as they seek employment 
in the airline industry. The directive came in the aftermath of 
the investigation of the tragic Colgan 3407 accident, an 
accident that may have been prevented had hiring officials 
known more about the pilot in command's checkered record.
    Years later, I must ask, when will the agency complete 
action on the long-awaited pilot records database?
    Mr. Huerta. As you know, H.R. 5900 included a number of 
rulemakings relating to pilot fatigue, safety management 
systems, pilot training, and pilot qualifications. A lot of 
good work has taken place, and I am pleased that we have been 
able to accomplish a great deal in improving pilot safety.
    With respect to pilots' records, this is something that we 
are focused on, but it is an incredibly complex undertaking. It 
requires a very extensive set of records, as well as a very 
extensive set of technology solutions that we need to look at 
to ensure that we can do this efficiently and that it can be 
effective in meeting what is needed here and what is called for 
in the Act.
    As you know, we initiated a rulemaking and developed a 
notice of proposed rulemaking and have been doing work on 
associated advisory circulars. We have been having extensive 
conversations with industry about how best to make this a 
reality.
    I am as frustrated as anyone that it has taken us this 
long, but it is important that we get it correct and that the 
records database serves the purpose that it was intended to 
serve, which is a transparent and effective means of sharing 
information across the industry.
    The Chairman. Thank you.
    Senator Cantwell?
    Senator Cantwell. Thank you, Mr. Chairman and Administrator 
Huerta.
    And I should just mention, if the Colgan families are here 
in the audience, as the Chairman mentioned, I want to thank 
them for their continued diligence on this issue, because their 
efforts to keep us focused on this are making a difference. So 
thank you.
    Administrator Huerta, I know just recently the FAA sent an 
urgent memo to United Airlines related to their pilots and some 
near mishaps. Is that an unusual move? Is that something that 
the FAA is trying to be more aggressive on, or were there real 
problems that needed to be addressed?
    Mr. Huerta. I think what it is reflective of is continued 
vigilance on maintaining the highest levels of operational 
safety across the industry.
    United and all of the major carriers have gone to safety 
management systems where they share data with the FAA, and the 
FAA analyzes that data on an ongoing basis. The purpose of our 
doing that is to see, are we picking up trends that would 
indicate that there are challenges or issues that the company 
and we need to address to maintain safety?
    The purpose of sending the letter to United was to bring to 
their attention things that our analysis had detected and which 
suggested needed their attention.
    This is a regular and ongoing activity that the American 
people expect of the agency in order to ensure that everyone's 
focus is where it needs to be. We need to focus on how is the 
company operating on a day-to-day basis, what they are seeing 
in the way of things that they need to focus on, all with the 
ultimate goal of maintaining very high levels of safety.
    Senator Cantwell. Well, I would encourage you to continue 
to have that level of vigilance. I think that is what the 
American public wants.
    I think that what people are looking at as it relates to 
the consolidation of the industry and how cultures are merged 
are whether processes are being followed. And, obviously, 
Colgan taught us a big lesson as it relates to people seeing a 
big brand that they might trust on the side of a plane, and 
then the same standards aren't necessarily applied through that 
whole culture. So I just can't emphasize enough how important 
this is.
    Now, I obviously want to see NextGen implemented. And I 
don't know if you could tell us--I actually have two questions. 
If you could get both of these in, it would be great.
    You know, last time we were here, I think it was somewhere 
in--was Dallas-Fort Worth the next site for staging and 
implementation, and we asked, what other cities or 
jurisdictions could we move forward on. Having those cities do 
the actual legwork so that, when the FAA is ready to move to 
them, they will already be better prepared.
    So I don't know if you have any update on that----
    Mr. Huerta. Certainly.
    Senator Cantwell.--as it relates to the implementation 
cities.
    And then, on this air traffic control system, many of my 
colleagues--for us, it is Walla Walla Regional Airport that is 
forced to pay into the contract support costs. You don't want 
them to go away. But yet, at the same time, for a small 
regional airport that is growing in air service as it relates 
to a burgeoning wine industry, you don't really want them to go 
out of business because of contract support.
    So I know you are working on a new formula and criteria 
that many of my colleagues on this committee care about, so if 
you could give us an update on that, it would be great.
    Mr. Huerta. First of all, as it relates to deployment of 
NextGen and performance-based navigation, as you know, one of 
our first and most successful projects was over Seattle, a 
program called Cleaner Skies. We designed a whole host of 
efficient procedures designed to save on track miles flown and 
fuel burn.
    That is now being applied across the country. When we last 
spoke, we had just deployed in Houston, where we turned on 61 
procedures all on 1 day of May of last year. Since those have 
been turned on, we have been getting an 80 percent utilization 
rate of performance-based navigation, and that is yielding 
millions of gallons in fuel savings.
    The same can be said for Dallas, which was turned on later 
in the year, in northern California and here in the Washington 
region, where we are also deploying performance-based 
navigation.
    Last week, we were in Atlanta talking about the deployment 
of a new set of procedures that increase the departure rate at 
Hartsfield-Jackson International Airport by about 25 percent. 
We revised wake turbulence standards that enable us to bring 
aircraft closer together, all of which save fuel and create 
much more efficiency in the system.
    So I think very, very good progress is being made, and that 
will continue.
    Relating to ensuring the funding for the contract towers, 
which you reference, as you know, the law requires that we 
regularly update the benefit-cost ratio that we use in making 
the determination of whether it is beneficial to have a tower 
at smaller regional airports.
    That is a process that is ongoing right now. We are 
updating the data on the cost side. We are also in discussions 
with the industry about how best to look at that data so that 
we can ensure that we are able to provide the services 
consistent with law.
    Senator Cantwell. Well, thank you. I will look forward to 
dialoguing. And if some of those airports----
    Mr. Huerta. Sure.
    Senator Cantwell.--can dialogue with the FAA on that 
formula, it would be very helpful.
    Mr. Huerta. Sure.
    Senator Cantwell. Thank you.
    The Chairman. Thank you, Senator Cantwell.
    Senator Blunt?

                 STATEMENT OF HON. ROY BLUNT, 
                   U.S. SENATOR FROM MISSOURI

    Senator Blunt. Thank you, Chairman.
    Administrator Huerta, Senator Manchin and I, along with 
Senator Inhofe, last year, sent you a letter on the contract 
tower issue. What law is it you are trying to comply with here 
to make the data and the law match?
    Mr. Huerta. The law requires that there be a positive cost-
benefit ratio, the cost of providing the tower versus the 
benefits achieved. On a periodic basis we need to update the 
methodology to ensure that the data is current.
    Senator Blunt. And what are you doing to update the 
methodology? How do you determine the benefit?
    Mr. Huerta. The benefit is calculated based on what we 
expect in the way of traffic and the safety benefit that is 
derived from having an air traffic control tower there relative 
to the nature of the services that they have.
    On the cost side, it is purely the cost of----
    Senator Blunt. And do you look at the options to using that 
airport that people might have as part of the benefit analysis?
    Mr. Huerta. What we look at is what it yields in terms of 
how the airport actually operates. But we would be happy to 
provide a detailed briefing on the actual methodology----
    Senator Blunt. OK. I would like to have that briefing.
    Mr. Huerta. Sure.
    Senator Blunt. That would be helpful. And just looking 
around at the people on this committee, I think there has been 
long-term and significant amount of interest by----
    Mr. Huerta. Sure.
    Senator Blunt.--many of the members of the Committee on 
this particular issue. So, in addition to Senator Manchin and 
I, I know Senator Moran has been one of the leaders on this. 
And I would like----
    Mr. Huerta. We would be happy to.
    Senator Blunt. I would like you to furnish us with that. 
That would be good.
    Also, on one other question, one of the goals you have 
stated is the importance of reinvigorating U.S. influence in 
the world in aviation. One of the questions I have is, what are 
you doing to try to be supportive of the certification process 
being appropriate for manufacturers in the United States in the 
aviation industry?
    Mr. Huerta. The FAA is very focused on streamlining the 
certification process and improving on it, for the reasons that 
you have talked about.
    Following the FAA Modernization Reform Act of 2012, section 
312 of that piece of legislation required the agency to develop 
14 specific initiatives that were really focused on how we 
could streamline and make the whole certification process much 
more efficient. We have completed 10 of those 14 initiatives.
    Examples of what we have done include developing an 
integrated comprehensive roadmap for major change initiatives 
across aircraft certification. That is essentially a forward 
look that we do in cooperation with industry. What can we 
expect industry to be putting before the agency? What that 
enables us to do is to plan our resource allocations so that we 
are ready for them when they come in.
    We have also developed an action plan and worked with the 
various industry associations. They feel that this has been 
quite effective in being responsive to their needs.
    They have also suggested that we focus on what is called 
the ODA, the organizational designation, where we can work with 
a trusted partner in manufacturing where they can act on our 
behalf to carry out many of the certification functions that 
would otherwise be carried out by an FAA inspector.
    This is something that the FAA is really looking at 
expanding and taking better advantage of the existing 
organizational delegations. We have hosted a number of seminars 
with the industry over the last couple of years and have had 
very specific discussions with individual companies about what 
they would like to see. I think good progress is being made.
    Finally, for small airplanes, we are very focused on a 
total rewrite of Part 23. This is the regulatory framework that 
governs small aircraft. We have worked in conjunction with an 
aviation rulemaking committee, which is where industry advises 
us on what they would like to see. I think that what we have 
developed is a great framework, which is now being codified in 
a notice of proposed rulemaking that we intend to publish later 
this year.
    Senator Blunt. One final question. On the training center 
that there has been discussion of relocating that, are you 
about to make a--have you made a final decision, or are you 
about to, on that?
    Mr. Huerta. On air traffic training?
    Senator Blunt. This is the training center that was in 
Florida, that there were----
    Mr. Huerta. Yes, we have. It is a national training 
company. It is more of a partnership model, working in 
conjunction with industry. We can provide you with the details 
of that.
    Senator Blunt. Thank you.
    The Chairman. Thank you, Senator Blunt.
    Senator Nelson?

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. And, Mr. Chairman, I will just ask a quick 
question so we can get on to the other members.
    Last December, the most unbelievable thing was discovered 
in the Atlanta airport. For 6 months an airport employee had 
been bringing guns into the airport, then going into the 
sterile passenger area, rendezvousing with a passenger who had 
already come through TSA with an empty backpack and giving the 
passenger guns, including a carbine. This went on for 6 months 
until he was finally caught. The last time, in December, when 
he was caught, the passenger had 16 guns in the backpack on the 
airplane. Now, thank goodness he was a criminal instead of a 
terrorist.
    Well, it so happens, of the 450 airports, there are only 2 
that have solved this problem, and I happened over the recess 
to visit both. One is Orlando, and one is Miami. What they did 
was they took all of their hundreds of airport employee access 
points, boiled it down to a handful, and then put up the same 
kind of screening that we as passengers go through in TSA.
    Airports, of course, want money to help with that 
screening, but it is absolutely necessary for the safety of the 
traveling public. So what about using FAA airport money to help 
airports do what Miami and Orlando have already done?
    Mr. Huerta. That is certainly a possibility.
    As you know, the screening and security responsibility is a 
shared responsibility between the Transportation Security 
Administration and the local airport authority. The FAA can 
support that, as you mentioned, Senator, through the Airport 
Improvement Program.
    The insulation of airport perimeter fencing is certainly 
something that we regard as a high priority for airport grants. 
We have provided close to $300 million in AIP grants over the 
last 10 years, so that is an average of about $30 million 
annually, for specific programs that have been requested by the 
airports. We----
    Senator Nelson. So you are saying the money is already 
there; they just need to apply for it?
    Mr. Huerta. We have two sets of AIP funding. There are 
formula allocations that local airports receive, and then there 
is a discretionary program. The airport can work in cooperation 
with the FAA to establish the priority of how the AIP funds get 
spent. Security is certainly something that is an eligible use 
there.
    Senator Nelson. Well, may I suggest that the remaining 448 
airports in this country need to do that.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Nelson.
    I have Senator Moran, followed by Senators Booker, Ayotte, 
and Manchin.

                STATEMENT OF HON. JERRY MORAN, 
                    U.S. SENATOR FROM KANSAS

    Senator Moran. Mr. Chairman, thank you very much.
    Administrator Huerta, thank you for being here.
    Mr. Huerta. Thank you.
    Senator Moran. Let me ask a couple of Kansas-oriented 
questions, one related to the fact that we manufacture lots of 
airplanes. The certification process--you have been directed, 
the agency has been directed to make improvements in the 
certification process. There is some evidence of improvements 
being made, but continue to be lots of concerns about delay and 
the time necessary.
    Also, the lack of use or availability of the ODA program, 
the organization designation authorization. Anything that you 
can assure me that things are getting better and are going to 
continue to get better?
    Mr. Huerta. I think they are getting better, and I think 
they are going to continue to get better.
    As I mentioned earlier, we had identified a number of 
specific priorities. The importance of these priorities is that 
they were negotiated with industry; what are things that they 
would like to see us doing? We are on track to addressing the 
major things that they would like to see and they relate to 
what you have talked about--the ODA, the organizational 
designation, and the rewrite of Part 23.
    This is something that is important because it enables the 
FAA to better leverage our resources to focus on more novel and 
complex manufacturing issues or where we are more likely to 
identify specific challenges and problems. This is something I 
am very, very committed to, and it is something that we are 
very much into for the long----
    Senator Moran. So there is not an FAA bias against ODA. In 
fact, you are indicating it is something you are very 
supportive of, would like to see it work more and better.
    Mr. Huerta. Certainly not at the leadership level, but I 
will say that anytime you are dealing with a redefinition of 
the regulatory relationship between a regulator and the 
industry that it regulates, it is an important cultural change. 
That is something that we recognize is that we have to address 
on the front lines. It is also something we must codify in the 
procedures and orders that we disseminate throughout the 
agency.
    That is why I spend a lot of time actually visiting 
frontline facilities, whether they are certificate management 
offices or manufacturing and aircraft certification offices. I 
talk one-on-one with the employees so that they understand what 
we are trying to achieve with this larger effort that we call 
risk-based decisionmaking.
    What we want the FAA to be doing is to evaluate where we 
see risk in the system and to focus our efforts on the riskiest 
activities and to take full advantage of the flexibilities that 
exist under ODAs and under streamlined processes. That is 
something that we have to be constantly working on on the front 
lines as well as in the leadership of the organization.
    Senator Moran. Administrator, thank you for that. I would 
invite you back to Wichita at any time. The Secretary of 
Transportation, in a similar setting a few weeks ago, agreed 
that he would come visit Wichita. We would love to have you in 
the air capital.
    Let me ask the other part of the Kansas question, which is 
we are also rural. Make lots of airplanes, but we are very 
rural. As we look at FAA reauthorization, I would be interested 
in knowing what you envision for small airports, how they will 
fit into the broader equation of transportation across the 
country.
    Mr. Huerta. Sure.
    Senator Moran. And then a couple of specific topics within 
that. Senator Blunt and Senator Cantwell mentioned the contract 
tower program, and if you would include me in your 
conversations or information with Senator Blunt, I would 
welcome that. We want to make certain that that program is 
utilized in a beneficial way to rural America.
    I also wanted to raise the topic of Essential Air Service. 
And one of the problems that many communities are experiencing 
is lack of reliability of those Essential Air Service carriers' 
service. And I would like to be made aware of your awareness 
and any thoughts on how we could improve that Essential Air 
Service program.
    The general defense by the airline companies is, ``We don't 
have enough pilots.'' And I don't know whether that is accurate 
or there is more to this story.
    And if you could give me your perspective on both--I guess 
you have answered the essential--I guess I would take Senator 
Blunt's question one step further. What kind of timeframe, how 
many airports are you evaluating on the contract tower program? 
And then can you tell me what we need to do, what needs to be 
done, to make sure that Essential Air Service providers are 
more reliable than they are?
    Mr. Huerta. OK. Thanks, Senator Moran. I actually heard 
three questions--one relating to the AIP program, one related 
to towers, and then one related to the Essential Air Service. 
So I will try to tackle all three of those.
    As it relates to access to the Airport Improvement Program, 
the AIP program is designed to strike a balance between 
supporting the major hubs in addition to providing a basic 
level of access. The administration's proposal incorporated in 
the President's budget basically would provide an increase in 
the PFC for the large airports in exchange for entitlement 
grants from the AIP program. This would enable the AIP program 
to focus on access for the small and medium-sized airports. So 
I think we are being very sensitive to what the infrastructure 
needs are in rural communities.
    As it relates to contract towers, what we are looking at is 
not so much a specific list of towers, but the full scope of 
the program and the cost-benefit methodology. It gets applied 
on a tower-by-tower basis, but what we are looking at is not so 
much a set of specific facilities but how the overall program 
is structured. We are happy to share that methodology with you 
as well as Senator Blunt and Senator Manchin.
    As it relates to the Essential Air Service program, I am a 
little bit out of my expertise here, since that program is 
administered by the Office of the Secretary. But my 
understanding of one of the major challenges with respect to 
EAS is the one thing that you have cited, the consolidation of 
the industry. It impacts how aircraft are being used into EAS 
markets--larger rather than the more ideally sized smaller 
aircraft that have a better fit with the demand that takes 
place in that market.
    I understand that there are also legislative challenges or 
framework challenges with the EAS program. As I understand it, 
in order to maintain EAS service, it has to be maintained at 
the same level that was provided in 1988. I think a fair 
question is, is that really an appropriate measure? A lot has 
happened between now and 1988, and maybe that would bear some 
looking into that as a way of providing more flexibility to 
maintain a basic level of service.
    Senator Moran. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Moran.
    Senator Booker?

                STATEMENT OF HON. CORY BOOKER, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Booker. Administrator Huerta, first of all, I just 
want to thank you for your service to our country. I think that 
you have a very difficult job. I have gotten to know you a bit 
over my short time in this Senate, and I have just been very 
appreciative of your leadership.
    It was a tribute, what Senator Moran said to you, by 
inviting you to Kansas. I want you to know that is a tribute to 
you, because he has never invited me to Kansas.
    [Laughter.]
    Senator Booker. Jumping in real quick, we have in New 
Jersey, as you know, a real congestion problem. In fact, you 
all found out in a January 2015 report that five airports will 
be significantly capacity-constrained by 2020. Four of those 
five are New Jersey-serving airports: Newark, JFK, LaGuardia, 
and Philadelphia.
    I obviously have been in touch with your team about the 
implementation of NextGen and the urgency for my region. I just 
want to ask really quickly before I move on to another subject, 
what do you need from Congress to further the rapid 
implementation to deal with congestion? What do you need from 
the airline industry that you may or may not be getting that we 
could help you with? And what do you need from the air traffic 
controllers?
    If you could give me some of those, give the Committee some 
of those things, so that we might act and help.
    Mr. Huerta. Yes, New York represents a particularly complex 
area because of the geographic----
    Senator Booker. You mean New Jersey.
    [Laughter.]
    Mr. Huerta. Well, the New Jersey metropolitan area----
    Senator Booker. Thank you.
    Mr. Huerta.--that happens to include portions of the state 
of New York----
    Senator Booker. Yes.
    [Laughter.]
    Mr. Huerta.--represents very, very significant geographic 
challenges because the airports are very close together.
    Senator Booker. Yes.
    Mr. Huerta. And they are older facilities with a lot of 
crossing runways. So there are a lot of challenges to work 
through there.
    Nonetheless, I think that we have made some important 
progress there. But New York is critical for the health of the 
National Airspace System--New York and New Jersey--because that 
region accounts for the lion's share of delays that ripple 
throughout the entire air traffic control system.
    What we have been very focused on is how we could better 
deploy performance-based navigation through airspace-redesign 
activities that give us greater efficiency in order to 
deconflict the airports. Because the airports are close 
together, under traditional air navigation processes, traffic 
into Newark has to be operated in conjunction with traffic into 
Teterboro and traffic at LaGuardia. If we are able to have much 
more efficient and curved arrival and departure paths, it 
enables us to deconflict the airports, meaning we get greater 
capacity for all of the airports that are in the system in that 
area.
    At LaGuardia, we published a new arrival procedure in April 
of this year. Why do you care about LaGuardia? This enables us 
to allow Newark and Teterboro to operate without restriction 
when LaGuardia and Kennedy are operating on a particular 
configuration. And that was just by changing one procedure at 
LaGuardia Airport.
    We are looking for more of those opportunities in order to 
provide----
    Senator Booker. Just real quick, because my time is running 
out----
    Mr. Huerta. Sure.
    Senator Booker.--I would love to hear from your staff what 
we could be doing with the airlines and with the air traffic 
controllers.
    Mr. Huerta. Sure.
    Senator Booker. I do think there are some issues with 
building more runways, creating more flexibility, dealing with 
the--I would love to talk more with you about the passenger 
facility charge programs and how they should be more directed 
in terms of investment to deal with some of the national 
problems.
    But in the short time I have left, I just want to switch 
really quickly to the issue of UAS, or drones, and two 
questions I have.
    One, as we are integrating next-generation technology, with 
the growth of the drone industry, isn't there some way that 
there could be some coordination in allowing a fix?
    And then the second part of my question. Foreign countries 
are just moving so much quicker than us. I am wondering how are 
they identifying the risks beyond the sight-line operations of 
autonomous aircraft systems that are allowing their industry 
and related industries to develop more robustly than ours are?
    Mr. Huerta. Well, I think it is important to point out that 
what we are trying to do is to integrate UAS into an existing 
and mature air traffic control system, and the most important 
thing that we can do is do that safely.
    Now, we have established six test sites around the country. 
New Jersey shares one of those test sites, along with many 
other states. The test sites provide a framework for us to set 
aside air space to conduct research and to conduct testing.
    I think that what we are trying to accomplish is a many-
pronged approach that is leveraging the test sites, leveraging 
existing exemption authorities that we have under section 333 
of the last FAA authorization. We have now issued close to 140 
exemptions. The exemptions are really being granted at a much 
faster rate than they were even a couple of weeks ago.
    At the same time, we published a notice for the small UAS 
program, a rule that would provide the regulatory framework 
under which such UAS would operate. The rule, if it is adopted 
as we proposed it, would provide for the most flexible and 
adaptable unmanned aircraft regulatory system that exists 
anywhere in the world.
    I think that it is important to point out that what we have 
to do is look at this in a staged way. How can we manage risk 
as we introduce these vehicles? This is something that is very 
much at the forefront of our thinking in NextGen, because 
NextGen has to accommodate all users--the traditional users we 
have today as well as new users, such as unmanned aircraft, in 
the years ahead.
    Senator Booker. Thank you, Administrator.
    Thank you, Senator Booker.
    The Chairman. Senator Ayotte?

                STATEMENT OF HON. KELLY AYOTTE, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Ayotte. Thank you for being here.
    I wanted to ask the Inspector General did the review of 
NextGen in 2014, and in that review there was quite a bit of 
criticism that the implementation was not going well.
    Putting aside the funding issue I understand, what do you 
believe is the biggest problem you face right now in making 
this happen, in terms of administering it, assuming we could 
get--I understand the consistency and stability of 
reauthorization. What do you see as the biggest barrier?
    Mr. Huerta. I think that we have made a lot of progress.
    When you look at what the Inspector General suggested in 
their report, they looked at a 10-year period, I think it is 
important to compare the first 5 years and the later 5 years of 
that 10-year period. It was in that later period of time that 
we started to put into place a lot of the program management 
processes that, when I came to the agency, I found to be 
lacking. Coming from industry, where I was the president of a 
technology company, I thought it was really important that what 
we adopted was done with the best industry practices for 
deployment of complex programs.
    It was against that backdrop that we rebaselined the ERAM 
program, which at that time was over budget and behind 
schedule, and, once we were able to rebaseline it, put the 
program management processes in place. The program was 
successfully concluded and met its milestones and its timing 
and budget.
    Likewise, that is now being applied to the full scope of 
NextGen programs. I think that on the technology side, we have 
put a number of tools in place that are giving us much more 
discipline in how we deploy complex technology programs.
    On the operational side, we have had to establish a much 
better linkage between the air traffic operation, the people 
that are deploying the programs and new technologies, and the 
people that are certifying that the new operations and 
procedures are safe. What that has actually resulted in within 
the agency is a tighter linkage across the agency, rather than 
a separation.
    I was mentioning to Senator Cantwell the airspace redesign 
projects that we have going on around the country. Well, our 
ability to turn on 61 new procedures on one day was premised 
upon having the operating part of the agency, air traffic, the 
regulatory side of the agency, AVS, and the NextGen side of the 
agency, plus all of our local partners, all working closer 
together to figure out how to design it, how to implement it 
safely. As a result of applying that best practice, we now have 
an 80 percent utilization rate.
    We wouldn't have seen that 10 years ago, because what we 
would have done would have been to do it piecemeal. It is that 
integrated approach that I think that we need to do more and 
more of.
    Senator Ayotte. I think one of the things I would, as we go 
forward, like to hear more from the agency--I have some other 
questions on another topic--but also is why, really, if we were 
to go down a different model in terms of air traffic control, 
for example, the Canadian model, how that would work here. And 
I think that is something that we need to look at and evaluate. 
I know the House committee is evaluating it, as well.
    But before I go, I wanted to ask you about the passenger 
facility charge and ask you, the proposal you have, in 
increasing the Federal cap on the local passenger facility 
charge--obviously, general aviation has its challenges, and it 
is important to our economy.
    So why do you think that we need to raise that cap now? And 
when was the last time you raised it? And what do you think 
that will do to average consumers in terms of their travel, in 
terms of that cost being passed on to them? So can you let us--
--
    Mr. Huerta. Sure.
    Senator Ayotte.--understand why you think this is 
justified?
    Mr. Huerta. Well, what we are trying to do is establish a 
balance between providing more local control and local 
resources for large hub airports that can afford to raise funds 
locally and targeting the base AIP program toward the smaller 
communities that might not otherwise be able to support an 
increase in the passenger facility charge.
    Essentially, as the president has proposed it within the 
budget, what we would do is we would reduce the overall size of 
the AIP program from $3.35 billion to $2.9 billion. The large 
airports would be excluded from AIP, and, in exchange, they 
would be given the opportunity to raise the funds locally 
through the increase in the passenger facility charge.
    I think that strikes the right balance between providing 
local control to those that can afford it, but, at the same 
time, for the smaller communities that are providing services 
to a much more diverse range of users, the base AIP program 
would still be there for them.
    Senator Ayotte. Thank you.
    The Chairman. Thank you, Senator Ayotte.
    Senator Daines?

                STATEMENT OF HON. STEVE DAINES, 
                   U.S. SENATOR FROM MONTANA

    Senator Daines. Thank you, Mr. Chairman.
    Mr. Huerta, thanks for being here today. And thank you also 
for working with us in Montana on the Powder River Training 
Complex. Appreciate the meeting that you took with us that 
allowed us to discuss the issues here.
    As we have said, the expansion of the Powder River Training 
Complex in eastern Montana is still leaving some safety 
concerns for the general aviation pilots. I am thankful the Air 
Force and the FAA have promised to take this adaptive 
management approach to the implementation of this air space.
    Could you perhaps describe how this approach might be 
realized and, specifically, how the Air Force and the FAA will 
evaluate the safety of the airspace and consider additional 
mitigations and adjustments as needed along the way?
    Mr. Huerta. Well, the principal thing that we were very 
focused on was how do we ensure basic levels of access to 
certain communities that would otherwise be restricted.
    I think that what the Air Force proposed, and what we 
actually required as a condition of approving their application 
for the Powder River complex, was that they would have an 
operating system and a communication system in place to protect 
access to air, primarily around Baker, Montana, which is in the 
eastern part of the state. As you pointed out when we met, 
Baker was really a hub of activity associated with the oil 
industry and other extractive industries that are taking place 
out there.
    Until that communication system is in place, the Air Force 
is restricted to operating at the higher altitudes. They are 
actively working on this, and we will need to sign off on the 
existence of the communication program.
    Senator Daines. Yes. And I think we share the same fear, 
that the communication system is a great step but I know the 
folks out there aren't quite convinced it goes far enough.
    I would like to get your commitment to continue to work 
with the local airports, the stakeholders, to provide the 
appropriate communications and radar equipment necessary to 
ensure a high level of aviation safety.
    Mr. Huerta. We will certainly continue to work with the 
community. This is something that we spent a lot of time really 
trying to understand in discussions with local stakeholders and 
users there in----
    Senator Daines. And I appreciate that, too. We are 
watching, again, where this is going to be in the next 5 to 10 
years----
    Mr. Huerta. Sure.
    Senator Daines. As you mentioned, the growth in the 
resource industry out there, the Baker on-ramp, where the 
Keystone pipeline will eventually go, is right there near that 
airport.
    Another question here relates to the medical examination 
alternatives for pilots exercising their third-class medical 
privileges with a few additional restrictions. And we are 
pleased to see the FAA announced plans to do that.
    I can tell you, this is very well received back home in 
Montana. In fact, just during this last recess, a number of 
occasions, I had pilots come to me unsolicited and thank us for 
the direction this is headed right now.
    What is the timeline for implementation? And do you have 
any indication what it will look like?
    Mr. Huerta. Well, I can't give an indication of what it 
will look like because it is actually taking the form of a 
rulemaking process, and, as you know, we can't talk about a 
rule while it is under development.
    But I will say this. We put out the original petition that 
was submitted by the general aviation industry for public 
comment. We did receive comments on both sides. While there 
were significant numbers of supporters, there were also 
significant numbers of those that expressed concerns, primarily 
the commercial pilots and the aviation medical examiners.
    We now have taken that and, during the process of 
developing a Notice of Proposed Rulemaking, have been in 
consultations with our colleagues across the administration 
about getting that out there for public comment.
    The important thing is to strike the right balance of 
ensuring that there is no degradation in safety while at the 
same time making sure that what we have is something that isn't 
serving as a disincentive to those that want to fly.
    Senator Daines. All right. Well, thank you, and I look 
forward to continuing to work with you on that. It is a big 
issue, I know, especially for the rural states, who have a lot 
of airspace.
    Lastly, Montana is the home to three Federal contract tower 
facilities, one in Kalispell, my hometown of Bozeman, as well 
as Missoula. As you know, the FAA is working to revise the 
cost-benefit criteria for the contract tower program.
    Considering that contract towers are responsible for 28 
percent of air traffic and utilize just 14 percent of total 
funding, how could you possibly determine that this is not 
cost-effective?
    Mr. Huerta. Well, it is just, where do the numbers take us? 
And that is the analysis that we have ongoing right now. What 
are the benefits of having a tower versus other technologies 
that would exist based on the traffic that a facility has?
    A tower provides an important level of safety; no one 
disputes that. It is really a question of ensuring that we are 
able to provide it in as cost-effective a way as we can.
    Senator Daines. Thanks, Mr. Huerta.
    The Chairman. Thank you, Senator Daines.
    Senator Heller?

                STATEMENT OF HON. DEAN HELLER, 
                    U.S. SENATOR FROM NEVADA

    Senator Heller. Mr. Chairman, thank you. Thanks for holding 
this hearing.
    And, Administrator, thank you for being here also.
    I want to talk a little bit about the Small Community Air 
Service Development Program. Everything is local, as you are 
probably well aware, and I want to talk to you a little bit 
about Nevada.
    Let me start with some numbers. You know, we have a 1997 
study that determines whether you are a small hub, medium hub, 
large hub, or a major hub. And the concerns are--and I think 
these numbers will help you understand it.
    At the Reno-Tahoe airport in 1997, based on the 1997 study, 
162,000 planes came and left--162,000. As of last year, 75,000. 
So we see a reduction of about 54 percent. In real numbers, in 
1996, based on the 1997 study, there were over 3 million 
travelers. As of last year, it was 1.7 million. So you can see 
that an airport like Reno-Tahoe has seen since 1997 a major 
reduction.
    I guess the question is, is there any way to go from a 
medium hub to a small hub and take advantage of some of the 
grant programs that are available?
    Mr. Huerta. I will have to get back and answer the question 
in more detail with respect to eligibility. This is actually a 
program that we don't administer at the FAA. It is administered 
in the office of the secretary even though it is framed out in 
our authorization----
    Senator Heller. Right, right.
    Mr. Huerta.--and included in our budget.
    I know that SCASDP is a program that is very focused on 
where you are trying to get: How do you provide small and rural 
communities with grants that enable them to build air traffic? 
But in terms of how they move from one to the other, we can get 
back to you with a more specific answer.
    Senator Heller. OK. Yes, I would like to know that.
    Would you have any problem with eliminating the 1997 
requirements to go into a more up-to-date number system?
    Mr. Huerta. You know, I would have to get more familiar 
with how the program goes to really have a reasonable answer.
    Senator Heller. I will tell you what. I will send a letter 
to you----
    Mr. Huerta. Sure.
    Senator Heller.--and give you an opportunity to respond.
    As you know, international travel plays a vital role 
throughout America. Obviously, with a state like Nevada, Las 
Vegas, we are well aware that an international traveler spends 
probably five times more than a domestic traveler does when 
they come into a city like Las Vegas.
    I am going to ask you a question, again, that maybe you 
have little to do with, but I still want to get your feedback 
on it.
    One of the biggest complaints that we have is the visa 
process and entry process. I am sure you are well aware of it, 
and, again, I know it is out of your purview to take care of 
this, but I was just wondering if there is a better way that 
the FAA can coordinate with TSA and some of these other custom 
agencies to resolve those kind of issues.
    Mr. Huerta. As it relates to how visas are granted, we are 
certainly open to having a conversation with our colleagues at 
Homeland to see if there are things that we might be able to be 
helpful with--for example, on the airport infrastructure side. 
Is there something about the design of a facility that would 
merit a quicker way to move people through the system when they 
visit?
    But as it relates to the original granting of a visa, that 
is something that is very much outside of our purview.
    Senator Heller. I am well aware of that.
    Mr. Huerta. It would be much more on the airport side. If 
there are things they need from us, we would like to hear about 
it.
    Senator Heller. You can imagine every airport that comes in 
and sits down and talks to me, that is the biggest concern and 
question that they have----
    Mr. Huerta. Sure.
    Senator Heller.--the ability to get people in and out, not 
only, obviously, Las Vegas but New York, Orlando, Los Angeles, 
and every state that is represented here----
    Mr. Huerta. Absolutely.
    Senator Heller.--on this committee.
    Let me talk a little bit about the importance of travel. 
You know, there are 150,000 Nevada jobs that are attributed to 
the travel industry. And, obviously, you play a major role in 
that. And we are not just talking Las Vegas; you have the Reno-
Tahoe area and places like Virginia City that are affected from 
it. It is about $17 billion in GDP just in the state of Nevada 
alone, so you can imagine how important this is to us.
    Just a basic question. What is the largest impediment to 
increasing capacity and reducing delays that we see in the 
airports today?
    Mr. Huerta. There is a great deal that we can do through 
better operation of the air traffic system, and that is what 
NextGen is really very focused on.
    But in certain areas, one of our largest challenges, 
particularly in older metropolitan areas, is constraints on the 
airport itself--no room to grow, no room to add runways. So we 
can focus on everything that we can possibly do to get greater 
efficiency out of the infrastructure that we have, and we are 
very, very focused on doing that. But in certain instances, you 
do run into the limits of just the facility itself. That is 
something that we have to continue to look at.
    And there are challenges in doing that. Particularly, in 
large urban areas, many of our airports are older and the 
metropolitan area has grown up around it. So you have to deal 
with very complex land use and utilization questions that are 
difficult for local entities to deal with.
    I think that what we at the FAA can do is support where we 
see the demand growing, and we do, in an annual forecast. We 
share what we see air traffic is going to look like. We work 
with our industry partners, and we want to support states and 
communities in figuring out how they can ensure that they have 
the necessary infrastructure.
    Senator Heller. Administrator, thank you.
    And to you, Mr. Chairman, thank you. I know I don't have to 
say this, but Senator Booker is welcome anytime into Las Vegas 
and the state of Nevada, so----
    [Laughter.]
    Senator Heller. Thank you.
    The Chairman. Yes. I think we welcome him in all our 
states.
    [Laughter.]
    The Chairman. Senator Klobuchar is up next, and then 
Senator Sullivan to take us out.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. All right. Thank you very much, Mr. 
Chairman.
    Thank you, Administrator, for being here and for your good 
work. You have been in our state, so thank you for that.
    I wanted to talk a little bit--I know Senator Moran touched 
on the Small Airplane Revitalization Act and the certification 
process. You know we really want to get those rules done. I was 
the Democratic lead on the bill with Senator Murkowski. It was 
a bipartisan bill that passed through both houses, and we are 
excited it was signed into law.
    I know you view the rewrite of Part 23 rules for small 
airplanes as really important to safety. Can you assure us that 
the NPRM for Part 23 small airplane rules will be published in 
the Federal Register by this summer? ``Summer'' is 3 months of 
a summer, so----
    Mr. Huerta. I think it would be ambitious to say I would 
get it published in the summer. We are very focused on getting 
it published this year.
    Senator Klobuchar. OK.
    Mr. Huerta. It is, as you know, a comprehensive rewrite of 
Part 23. A lot of really good work is going into this project. 
I think the industry is going to be very pleased with where it 
is. But we are very focused on getting it done as quickly as we 
can.
    Senator Klobuchar. All right. Thank you.
    I am also leading the bill to lift the embargo on Cuba with 
Senators Flake, Enzi, and Paul and a number of Democrats. There 
are 11 million people ----
    Mr. Huerta. Yep.
    Senator Klobuchar.--just off our shore, 90 miles away.
    There is also a bill that I am a cosponsor of to lift the 
travel embargo. Previously, only certified chartered flights 
could fly from one of 19 approved U.S. airports to Cuba. 
However, with restored diplomacy, there is now one carrier, Sun 
Country--that seems like a good name for Cuba--which is, in 
fact, a Minnesota-based air carrier, offering some scheduled 
commercial air service to Cuba from New York.
    While it is still costly and travelers have to cut through 
a large amount of red tape, this is a sign that some travel is 
opening because of these changes. Can you describe the steps 
the FAA is taking to help facilitate increased air travel 
between the U.S. and Cuba?
    Mr. Huerta. Sure.
    The FAA is third in line, behind our colleagues at State 
and the Transportation Department, in terms of initiating new 
air service. Essentially, State has been involved in a 
government-to-government consultation and they are now bringing 
the aviation piece into the discussion, which is supported 
under the economic authorities for air service that are held by 
the Secretary of Transportation.
    Our piece of it will kick in with respect to ensuring the 
safety of the operators that are going to provide service 
between here and Cuba. That includes an assessment of our Cuban 
counterpart to ensure that, should Cuban air carriers wish to 
provide service to the U.S., that they can provide the 
regulatory oversight to ensure that they are doing it safely 
and, at the same time, ensuring that our carriers have the 
appropriate operating specifications to provide service there.
    It is a tremendous opportunity, and it is something that we 
are working with our government colleagues to make a reality, 
as we work through the process to restore regular air service 
into Cuba.
    I will say this, and that is that we have a very open 
relationship with our Cuban air traffic counterparts. We share 
an airspace boundary with Cuban airspace, and we pass flights 
back and forth daily between the United States and Latin 
America that overfly Cuba.
    Senator Klobuchar. Right. I went to Cuba a few months ago 
with Senator Warner and Senator McCaskill. I think people would 
be surprised at all the flights going back and forth. They are 
officially charters, but they are actual carriers like JetBlue 
and other companies. I think people would be surprised at how 
many of these flights are going in and out all the time.
    Mr. Huerta. It is a lot.
    Senator Klobuchar. Yes.
    Last Congress, I cosponsored the BRIDGE Act with Senators 
Warner and Blunt and others, which would establish an 
infrastructure financing authority. As you know, we are coming 
up on the deadline of the Highway Trust Fund, which isn't in 
your area. But do you support the creation of this financing 
authority to help finance investments in our aviation 
infrastructure in addition to the Airport Improvement Program 
funds?
    Mr. Huerta. I think that any tool in the toolbox that 
provides a mechanism not only to provide grant assistance but 
also to leverage private investment in infrastructure is a good 
thing. As we look at how do we address the large infrastructure 
problems as a country, we need to look at every possible tool 
in the toolbox, and that certainly is a good opportunity.
    Senator Klobuchar. Well, thank you very much. I appreciate 
it.
    Mr. Huerta. Thank you.
    The Chairman. Thank you, Senator Klobuchar.
    The Senator from Alaska, Senator Sullivan.

                STATEMENT OF HON. DAN SULLIVAN, 
                    U.S. SENATOR FROM ALASKA

    Senator Sullivan. Thank you, Mr. Chairman.
    The Chairman. Big issues with the FAA in Alaska, right?
    Senator Sullivan. And, Administrator Huerta, thank you. I 
would like to get you up to Alaska, and soon, if you can. Also, 
I know there are a lot of people inviting Senator Booker. He 
was in Alaska last summer. I would like to bring him up for 
other purposes than what he was up there for last summer.
    Mr. Huerta. I have been to Alaska twice, and----
    Senator Sullivan. Good. No, I know you have, and I want to 
extend that invitation again.
    And I think, you know, I don't have to cover too much, 
because we could be here all morning, but I do believe, you 
know, you have a lot of states that talk about how unique they 
are with regard to general aviation and aviation services. You 
have been there twice--and, again, we would welcome you to come 
on up for another visit--but, with regard to Alaska, as you 
know, there are very, very many unique----
    Mr. Huerta. Yes.
    Senator Sullivan.--situations with regard to general 
aviation. As you know, many, many of our communities, even 
large communities, aviation is the only means by which to get 
in and out, whether it is just travel, whether it is supplies 
for stores. And there are over 400 general aviation airports 
across Alaska.
    As Senator Heller was talking about, it is also a huge part 
of our economy. The general aviation industry contributes over 
a billion dollars to our state's economy, as well as supports 
close to 50,000 jobs in the state, including a key role--and 
you probably know this; a lot of folks don't--in terms of 
health care----
    Mr. Huerta. Yes.
    Senator Sullivan.--in and out of different communities.
    Obviously, safety is a very big issue for us. And we have 
had some very tragic accidents, like a lot of states have. And 
I wondering, in terms of access in and out of small 
communities, that aviation is the key lifeline, but also 
safety. How do you look at balancing those two different 
issues?
    And, more generally, with regard to the reauthorization 
bill, will there be provisions to kind of make sure there is a 
focus on rural states that rely on general aviation so much?
    And is the FAA looking at putting out their own 
reauthorization proposal as a beginning? I mean, you are the 
experts on these areas, but you know how important they are to 
certain states like mine.
    Mr. Huerta. Sure. Aviation is certainly very important to 
Alaska, and that was hammered home to me the first time I 
visited, when I had the opportunity to visit many of the 
isolated communities that you are talking about, including the 
state capital, which is accessible only by air.
    Alaska has many unique challenges that we need to deal 
with, with respect to the variability of the weather, the 
nature of the infrastructure that exists on the ground, and how 
aviation is used. Someone used the example that the Beech 
Bonanza is more or less the family car for a lot of families 
that live up in Alaska.
    Alaska also, though, serves an important role in testing 
and deploying new technologies for all of the FAA. It was in 
Alaska that we first pioneered the use of Automatic Dependent 
Surveillance-Broadcast and then, through the Capstone program, 
laid the foundational steps for what is now being deployed 
across the whole country for performance-based navigation, 
which gave Alaska much better access in inclement weather 
systems.
    I think finding that right balance between the needs of 
rural communities and the needs of the aviation system in its 
entirety is really a central theme that Congress needs to 
grapple with as we look at reauthorization. In the past, 
Congress has always been striving to achieve that balance. What 
do we need to support the overall industry in its full extent--
carriers, manufacturers, and so forth? At the same time, 
aviation is an important mode of transportation, particularly 
in a state like Alaska.
    Senator Sullivan. Let me ask just a quick more specific 
question. You know, I was home, like a lot of us, during 
recess. And another area where we have been a pioneer is in 
terms of training, particularly the College Training Initiative 
program at the University of Alaska. We were one of the 
original five CTI institutions in the United States in 1990.
    I know you have had a lot of questions, but there are a lot 
of questions about what has happened with regard to the FAA's 
focus on providing applicants, particularly with regard to air 
traffic controllers coming out of these training facilities and 
institutions, a preference with regard to hiring.
    And there were a lot of concerns that this was not done in 
a transparent manner, that this could increase cost to the FAA, 
this could, obviously, in my view, undermine safety. Could you 
comment on that?
    Because, you know, there were a lot of students in the 
pipeline at UAA who, bam, without any warning, really were 
told, hey, this is not going to help you with regard to getting 
hired through the FAA, in terms of air traffic controllers.
    Hopefully you have been to the UAA facility. It is world-
class. I was there; again, I spent a couple hours there. I 
can't imagine why we would not be encouraging this kind of 
training versus, with the stroke of a pen, not encouraging 
those students who have put literally years into training to 
get careers.
    What was going on there, and what is going on there? There 
is a lot of concern on what you guys have done.
    Mr. Huerta. I think that it is important not to confuse 
what we regard as training and what we regard as qualification 
for a job with an entitlement. The important thing to recognize 
is the air traffic controller profession is a very attractive 
profession. Last year, we hired----
    Senator Sullivan. But you are not saying that that 
preference was an entitlement, are you?
    Mr. Huerta. Well, I think some confuse it as that. I am not 
saying everyone, but I think some do.
    But let me just give you some numbers. We hired 1,600 
controllers last year. We received 28,000 applications. Of the 
1,600 that were hired, two-thirds came out of the collegiate 
training programs that you are referencing.
    So they are getting credit for this training. They 
represent the majority of people that we are actually hiring. 
Every one of those 1,600 individuals is now going through 
training at the FAA and is being offered a job in the system.
    But if you look at everyone who is coming out of the 
programs, the numbers greatly exceed what the FAA would ever 
expect to hire. So I think that it is important to recognize 
that what we are trying to do is get the best qualified pool of 
candidates, but we have far more demand for the jobs than we 
actually have positions available. This is a dialogue we will 
continue to have with the CTI programs.
    Senator Sullivan. Yes, I think it is important.
    Thank you, Mr. Chairman.
    And I will have some follow-up questions with regard to the 
change. I think transparency, though, in that change and not 
having it so abrupt, very important as you look to do something 
like that in the future.
    The Chairman. Thank you, Senator Sullivan.
    Mr. Administrator, as you have heard, there is an interest 
among the members of the Committee related to ATC reform. And a 
question is, has the FAA evaluated options for a path forward 
if it is shown to be the right thing to do?
    Mr. Huerta. Well, we are evaluating options, but I think 
the first question--you have to answer two questions first. 
What problem do we think that we are trying to solve here? And 
then the second thing, what does the proposed solution look 
like?
    There have been many conversations that have been taking 
place, ranging from full-scale privatization to something that 
is more a government corporation kind of model or a different 
type of agency model that might exist. I think all of those 
need to be on the table as we talk about how we best ensure 
safety and deliver NextGen.
    But it is important that when we look at this we look at 
the progress that we have made. For example, many have talked 
about we need to change the organizational structure to enable 
us to more efficiently deploy NextGen.
    What you have heard me say today is a lot of the progress 
we have made on efficiently deploying NextGen in the past few 
years has been tighter links within air traffic with their 
colleagues, particularly in the regulatory and airports part of 
the agency.
    I would be fearful of any structure that would actually put 
a wall in the middle of that process that would make it harder 
to build those collaborative relationships so that we can 
deploy the very thing the users need and want and which we are 
all supportive of.
    So we need to ensure that there are not unintended 
consequences that result from moving too quickly to a 
structural alternative. Across the whole industry we have to 
have a clear understanding of what are we trying to get to and 
how are we going to ensure that we get there in the years 
ahead.
    The Chairman. Well, I guess what I would say is, as we work 
on reauthorization, we would like to continue that discussion 
with you and with----
    Mr. Huerta. Absolutely.
    The Chairman.--the agency on developing options and 
certainly getting your, you know, reaction, evaluation of some 
of those things that are out there as we work to achieve the 
goals of a safer and more efficient and cost-effective FAA and 
air traffic control system.
    So, to the degree that you have input that you would like 
to offer us, we would certainly welcome that and look forward 
to working with you--and any other thoughts on reauthorization 
that you can put forward. I don't know if you have put any 
draft out there yet, but, to the degree that that is available, 
we would appreciate that as we get underway with our efforts.
    Mr. Huerta. Absolutely.
    The Chairman. So we thank you for being here today and for 
your responses to our questions. And, obviously, the room has 
been vacated, so we will release you.
    And this hearing is adjourned.
    Thanks.
    Mr. Huerta. Thank you, Mr. Chairman.
    [Whereupon, at 10:54 a.m., the hearing was adjourned.]

                            A P P E N D I X

     Response to Written Questions Submitted by Hon. John Thune to 
                         Hon. Michael P. Huerta
    Question 1. What is the agency doing to assist general aviation 
airports and rural states in providing cost-effective local weather 
data needed to support Instrument Flight Rules approaches and maximize 
airport operational utility?
    Answer. The FAA's Non-Federal Program mission includes helping 
general aviation (GA) airports and rural states acquire/operate cost-
effective aids to air navigation. This includes acquiring &/or 
expanding access to local weather data that supports IFR approaches, 
and maximizes airports' operational utility.
    The Non-Federal Program approaches this effort in various ways. One 
key example is the work with the Aircraft Owners & Pilots Association. 
(``AOPA'' represents the GA community, and has nearly 400,000 members.) 
This collaborative effort focuses on non-Federally-owned automated 
weather observation systems (AWOS). The goal is to increase the number 
of non-Federal AWOS that are connected to the FAA's WMSCR system.
    The FAA's WSMCR capability is used to disseminate current aviation-
meteorological data products. This includes ``aviation routine weather 
reports,'' aka ``METARs,'' which are aggregated from various sources. 
Increasing the sources of data results in better quality weather 
products and increased benefit for the GA community. As the sources 
increase, pilots planning a flight will have access to FAA-certified 
weather information available for broader array of airports. 
Additionally as data is received from the increased number of local 
AWOS, the accuracy of local weather forecasts will be improved. These 
benefits clearly help to support instrument flight rule (IFR) 
approaches, and maximize airports' operational utility.

    Question 2. What policy changes can be taken to encourage 
manufacturers of Automated Weather Observing Systems (AWOSs) to use new 
technology that minimizes maintenance requirements and ongoing 
operational costs? In turn, what agency policies can be modified to 
minimize or remove unnecessary or burdensome requirements related to 
AWOSs that are not required for safe aircraft operation?
    Answer. The FAA's Non-Federal Program has been working with the 
Aircraft Owners & Pilots Association (AOPA). One objective of this 
joint effort is to encourage prospective owners of non-Federal AWOS to 
buy the newest types of FAA-approved AWOS. Similarly, owners of older 
types of AWOS are being encouraged to upgrade to newer systems.
    This effort is primarily intended to benefit the aviation 
community. However, as the pool of prospective buyers grows, a benefit 
will also accrue to the companies that manufacture and maintain non-
Federal AWOS. Presumably, these companies will seek to convert the 
maximum number of prospective buyers into actual buyers. A fundamental 
way companies can accomplish this is by making their products and 
services as affordable as possible. For instance, many manufacturers 
also sell maintenance packages. Therefore, manufacturers can make AWOS 
ownership more affordable by developing new technology that minimizes 
maintenance requirements and on-going life-cycle costs.
    Additionally, the FAA is taking steps to reduce maintenance 
requirements and their associated costs. A prime example can be found 
in the latest revision to the ``non-Federal AWOS AC,'' which reduced 
annual maintenance costs by 25 percent. Prior to this revision, 
maintenance had been required four times per years (i.e., every 90 
days). However, the revision reduced this requirement to three times 
per year (i.e., every 120 days). This change was made possible because 
non-Federally-owned facilities must be operated and maintained to the 
same standards as FAA-owned facilities. The FAA had determined that its 
AWOS only needed to receive maintenance three times a year--rather than 
four. That decision was influenced by manufacturers' development of 
systems with improved technology and reliability.
    It is important to note that the FAA does not--and cannot--develop 
its maintenance requirements based solely on how technologically 
advanced a system is. A requirement may seem ``burdensome'' and 
``unnecessary''--until all the relevant (though lesser known) factors 
are considered. For instance, if a non-Federal AWOS is not operating 
properly, how will that affect its weather data? Will it interfere with 
the frequencies of nearby air-navigation facilities? Also, how well is 
the system protected against cyber attacks and physical vandalism? Will 
softening the requirements expose the FAA to potential liability that 
outweighs the benefits to owners & manufacturers? And if an accident 
occurs, will the AWOS owner be able to provide the necessary data to 
assist the NTSB?
    Finally, the Agency strives to support the expansion of non-
Federally-owned systems in the NAS. However, it also strives to provide 
quality over quantity.

    Question 3. FAA Advisory 150/5220-16D, ``Automated Weather 
Observing Systems (AWOS) for Non-Federal Applications,'' requires 
maintenance technicians for AWOSs to comply with FAA Order 6700.20A, 
``Non-Federal Navigational Aids and Air Traffic Control Facilities.'' 
This Order is dated December 11, 1992. Technology has changed 
significantly in 23 years. For example, the Order requires non-federal 
technicians to have an FCC general radio telephone operator license as 
well as the same qualifications as Federal technicians. Has the FAA re-
evaluated the qualifications for non-federal technicians to ensure the 
requirements are commensurate with the level of skill necessary to 
maintain the modern day technology? If so, how has the FAA worked with 
manufacturers during this evaluation? If not, how would the FAA work 
with manufacturers during such an evaluation?
    Answer. The FAA has recently re-evaluated 6700.20A's qualifications 
for non-Federal technicians. Those qualifications remain proportional 
to the task of maintaining FAA-approved, non-Federally-owned systems. 
Similarly, those same qualifications continue to apply to the FAA 
technicians who maintain Federally-owned equivalents of non-Federal 
systems.
    FAA Order 6700.20A is nearing the culmination of a complete, multi-
year overhaul. The result will be an updated version: 6700.20B. The 
update process included extensive review by a large number of 
organizations and personnel from across the FAA. During the national 
review, the FAA office in charge of the overhaul received more than 800 
comments. Many of them proposed changes to obsolete policies and 
procedures. However, out of more than 800 comments, there were no 
suggestions to amend the FCC-licensing requirements for non-Federal 
technicians.
    Finally, order 6700.20 is an FAA ``directive.'' Agency policy 
dictates that directives are mandatory instructions for FAA personnel. 
As a result, only Agency personnel are involved in the writing and 
revision of FAA orders.

                                  [all]

                
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
